<html>
<title> - WORK-LIFE PROGRAMS: ATTRACTING, RETAINING, AND EMPOWERING THE FEDERAL WORKFORCE</title>
<body><pre>[Senate Hearing 111-617]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-617
 
 WORK-LIFE PROGRAMS: ATTRACTING, RETAINING, AND EMPOWERING THE FEDERAL 
                               WORKFORCE

=======================================================================


                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 4, 2010

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
57-934                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
ROLAND W. BURRIS, Illinois           LINDSEY GRAHAM, South Carolina
EDWARD E. KAUFMAN, Delaware

                     Lisa M. Powell, Staff Director
                        Kata C. Sybenga, Counsel
             Jennifer A. Hemingway, Minority Staff Director
                      Aaron H. Woolf, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     2

                               WITNESSES
                          Tuesday, May 4, 2010

Cecilia E. Rouse, Member, Council of Economic Advisers...........     4
Jonathan Foley, Senior Advisor to the Director, U.S. Office of 
  Personnel Management...........................................     6
Kathleen M. Lingle, Executive Director, Alliance for Work-Life 
  Progress at WorldatWork........................................    15
Max Stier, President and Chief Executive Officer, Partnership for 
  Public Service.................................................    17
Colleen M. Kelley, National President, National Treasury 
  Employees Union................................................    19
Jonathan P. Flynn, Vice President, American Federation of 
  Government Employees...........................................    20

                     Alphabetical List of Witnesses

Flynn, Jonathan P.:
    Testimony....................................................    20
    Prepared statement...........................................    69
Foley, Jonathan:
    Testimony....................................................     6
    Prepared statement...........................................    36
Kelley, Colleen M.:
    Testimony....................................................    19
    Prepared statement...........................................    62
Lingle, Kathleen M.:
    Testimony....................................................    15
    Prepared statement with an attachment........................    44
Rouse, Cecilia E.:
    Testimony....................................................     4
    Prepared statement...........................................    31
Stier, Max:
    Testimony....................................................    17
    Prepared statement...........................................    54

                                APPENDIX

Background.......................................................    79
Cindy Auten, General Manager of Telework Exchange, prepared 
  statement......................................................    86
Report titled ``The Need for Paid Parental Leave for Federal 
  Employees: Adapting to a Changing Workforce,'' by Kevin Jiller, 
  Ph.D., Allison Suppan Helmuth, and Robin Farabee-Siers, 
  Institute for Women's Policy Research..........................    90
Janet Kopenhaver, Washington Representative, Federally Employed 
  Women (FEW), prepared statement................................   107
OPM ROWE Pilot Program, copy submitted for the Record............   115
Questions and responses for the Record:
    Ms. Rouse....................................................   139
    Mr. Foley....................................................   141
    Ms. Lingle...................................................   145
    Mr. Stier....................................................   149
    Mr. Flynn....................................................   151


                    WORK-LIFE PROGRAMS: ATTRACTING,


                       RETAINING, AND EMPOWERING


                         THE FEDERAL WORKFORCE

                              ----------                              


                          TUESDAY, MAY 4, 2010

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order.
    Good afternoon, everyone, and welcome. Thank you all for 
being here today as the Subcommittee on Oversight of Government 
Management, the Federal Workforce, and the District of Columbia 
meets to examine how work-life programs can support Federal 
employees and improve government operations.
    It is fitting that we are addressing these issues during 
Public Service Recognition Week. This week is set aside each 
year to honor the dedicated public servants who provide vital 
services to our Nation. Public Service Recognition Week is also 
an opportunity to showcase the many attractive careers in 
public service. As we showcase these careers, we must also make 
sure that the Federal Government is an employer of choice and 
offers a competitive benefits package.
    The American workforce faces a new set of challenges. As 
costs have risen and wages have lagged, fewer families can 
afford to rely on a single income and many parents juggle busy 
work schedules and child care responsibilities. Workers of all 
ages find themselves leaving work for night classes, as 
professions that once required a high school or undergraduate 
education now demand advanced degrees.
    In addition, almost 50 percent of the Federal workforce 
will be eligible for retirement in the next 5 years. Younger 
workers may have different work expectations than previous 
generations and may value workplace flexibility more than 
traditional fringe benefits. The Federal Government needs to 
adapt just as the private sector has to attract and retain the 
next generation of Federal workers.
    Work-life programs help agencies compete in the 
marketplace. Offering our employees options like flexible 
schedules and ability to telework and access to wellness 
programs improves employees' quality of life and increases 
productivity.
    This winter, this area experienced three blizzards. Those 
storms strongly reinforced the importance of telework for 
productivity and continuity of operations. Because of these 
benefits, Senator Voinovich and I introduced the Telework 
Enhancement Act last year. I look forward to finalizing that 
bill and to learning about other ways Congress can support 
work-life programs.
    Recently, at the Workplace Flexibility Forum, President 
Obama noted that companies with flexible work arrangements 
often have lower turnover and absenteeism, along with higher 
productivity and healthier workers. The President also cited a 
recent report on work-life balance and the economics of 
workplace flexibility. I am pleased to have one of the authors 
of this report, Cecilia Rouse from the President's Council of 
Economic Advisers, here to discuss their research on the 
economics of work-life programs. I look forward to hearing from 
Ms. Rouse about how these policies benefit not only employees, 
but also employers and the economy as a whole.
    I also look forward to hearing from our other witnesses 
about the efforts being made to provide work-life programs to 
Federal employees as well as suggestions to better use these 
programs to support our workforce, attract the best people to 
public service, and make the Federal Government the employer of 
choice in this country.
    The Federal Government is the largest employer in the 
United States and we can lead by example. This week, Public 
Service Recognition Week, we celebrate those men and women who 
make a commitment to serve the government in the military or 
civilian service. We can do more to honor their service every 
day by empowering employees to innovate, live healthier, and 
strive to be their best, both at work and at home.
    I thank you all again for being here today and now call on 
our Ranking Member, Senator Voinovich, for his statement. 
Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. Thanks for 
calling today's hearing. As we commemorate Public Service 
Recognition Week, I think it is important that we examine the 
extent to which the Federal Government's work-life policies 
support our need to recruit and retain highly qualified 
individuals to use their skills in service to our Nation.
    We have discussed for years the human capital crisis that 
will ensue when the baby boom generation begins to retire. By 
the fall of 2012, the Partnership for Public Service estimates 
that the Federal Government will hire nearly 273,000 new 
workers for mission critical jobs--273,000.
    This year's theme of Public Service Recognition Week, 
Innovation and Opportunity, reminds me of the golden 
opportunity we have in this economy to find some wonderful 
people who may not have previously considered Federal service. 
While the economy has led some to extend their Federal careers, 
others are in need of employment and it is our collective 
responsibility to make sure we attract the best and brightest 
at all career stages.
    When Senator Akaka and I got started with this, we were 
able to get the John F. Kennedy School for Government to make 
human capital an executive session, and I recently asked my 
staff to look at what the percentage of people are today in 
terms of back in 2000 in terms of the people in the John F. 
Kennedy School for Government going into the Federal service or 
in the public service. I was really disappointed because it is 
about the same. It hasn't really changed very much over the 
number of years. So in spite of the fact that we have tried to 
make the Federal opportunity more attractive, we are still not 
getting the job done, at least as far as graduates from the 
John F. Kennedy School for Government.
    The Federal Hiring Process Improvement Act, I think, will 
help agencies and job applicants by eliminating the barriers 
for applying for Federal employment. Once employees have 
entered on duty, however, the Federal Government must be 
innovative in its efforts to give agencies and employees the 
tools needed to perform at work and to maintain a healthy work-
life balance.
    One need only look at the Best Places To Work rankings to 
see how flexibilities can improve employee satisfaction. As the 
Chairman knows well, we have worked together to provide human 
capital options for the Nuclear Regulatory Commission (NRC), 
the Government Accountability Office (GAO), National 
Aeronautics Space Administration (NASA), the intelligence 
community (IT), and the Department of State. The fact that 
these agencies are currently ranked one through five on the 
Best Places To Work Survey shows that flexibilities, when 
properly implemented and communicated to employees, improve 
employee satisfaction.
    During his confirmation process, I challenged Director John 
Berry to lead by example and make the Office of Personnel 
Management (OPM) an employer of choice among Federal agencies. 
I look forward to learning from OPM how the Results-Oriented 
Work Environment will improve individual employee performance 
while providing employees greater control over how they 
accomplish their daily work. This type of strategic innovation 
is exactly what Senator Akaka and I hoped would result when we 
created the Chief Human Capital Officers Council 8 years ago. 
Thank you, Mr. Chairman.
    Senator Akaka. Thank you, Senator Voinovich.
    I welcome our first panel of witnesses to the Subcommittee, 
Cecilia Rouse, Member of the Council of Economic Advisers, and 
Jonathan Foley, Senior Advisor to the Director of the Office of 
Personnel Management.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses. Please stand and raise your right hand.
    Do you swear that the testimony you are about to give 
before this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Rouse. I do.
    Mr. Foley. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statement will be part of the record, and I would like to 
remind you to please limit your oral remarks to 5 minutes.
    Ms. Rouse, will you please proceed with your statement.

 TESTIMONY OF CECILIA E. ROUSE,\1\ MEMBER, COUNCIL OF ECONOMIC 
                            ADVISERS

    Ms. Rouse. Good afternoon, Chairman Akaka, Ranking Member 
Voinovich, and other Members of your Subcommittee and staff. I 
am very pleased to represent the Council of Economic Advisers 
at this very important hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rouse appears in the Appendix on 
page 31.
---------------------------------------------------------------------------
    Today, I will focus my remarks on the main findings from 
our March 2010 report entitled, ``Work-Life Balance and the 
Economics of Workplace Flexibility.'' The report discusses some 
of the changing patterns of the American workforce, and the 
state of flexible work arrangements in our economy, the 
economics of workplace flexibility. I will defer discussion of 
the Federal Government's work-life programs to my colleague 
from the Office of Personnel Management (OPM).
    As you stated in your opening remarks, we know that the 
American economy has changed dramatically over the past half-
century. Women have entered the labor force in growing numbers, 
such that women now comprise nearly one-half of the labor 
force, and in nearly one-half of all households, all adults are 
working. Families have increasingly relied on more than one 
earner to make ends meet, and yet children still need to be 
taken to the doctor and elderly parents still need care. As a 
result, approximately 43 million Americans served as unpaid 
caregivers to a family member over the age of 50 in 2008, and 
nearly 20 percent of employed people were caregivers who 
provided care to a person over the age of 50.
    In addition, we know that skills are increasingly important 
for our labor market, and as a result, we have more adults who 
are older than 25 attending school.
    Because of these changes, many workers face the conflicts 
between their work and their personal lives, which inspires a 
need for flexibility in the workplace. In our report, we 
describe the prevalence of these workplace practices. We divide 
them into three main categories: When one works, where one 
works, and how much one works.
    In terms of when one works, over one-half of employers 
report allowing giving at least some of their workers 
periodically the ability to change their starting and quitting 
times, thereby giving some flexibility over when they work. 
However, less than one-third of full-time workers report having 
flexible work hours, and only about 40 percent of part-time 
workers do.
    We also consider how prevalence and flexibility differs 
across demographic groups. While we find that men and women are 
equally likely to report having flexible work hours, less-
skilled workers are much less likely to report such 
flexibility. We believe this stems from the fact that 
flexibility is a form of compensation and less skilled workers 
receive lower levels of all forms of compensation, as well as 
perhaps due to the nature and context of low-wage jobs.
    Flexibility in terms of where to work is less common. Only 
about 15 percent of workers reported working from home at least 
once a week. About 23 percent of employers reported allowing 
some of their workers to work at home on a regular basis. And 
only one percent of employers allowed most or all of their 
employees to do so. At the same time, about 50 percent of 
employees reported having the ability to work from home 
occasionally.
    Finally, most employers do offer some workers the ability 
to return to work gradually after major life events, such as 
the birth or adoption of a child, although job sharing, where 
multiple workers share the responsibility of one position 
appears less widespread.
    When we consider the economics of workplace flexibility, we 
know that employers must balance the potential costs of these 
arrangements against the potential benefits. The report 
discusses the fact that the existing research suggests that 
workplace arrangements have been associated with reducing 
turnover, reducing absenteeism, assisting with recruitment, 
improving health, and boosting productivity.
    We present a number of case studies that highlight the 
benefits of flexible work arrangements for firms in various 
industries and of various sizes, and while some research 
suggests that flexible practices can improve productivity, more 
research would help us to better understand the trade-offs that 
employers face when adopting these arrangements.
    However, many firms have not adopted these practices 
despite these potential benefits. One possible explanation is 
that the costs and benefits of adopting these practices do 
differ across and within firms, and we know that firms that 
have the greatest net gains to adopting these practices will be 
the ones to do so. Consider the fact that the evidence that we 
considered and we looked at is from firms that have already 
chosen to adopt the practices. Therefore, they may be the firms 
for which it is most beneficial. Moreover, from a strictly 
economic perspective, it may be that encouraging wider adoption 
will not be beneficial to those extra firms.
    However, we believe that there still is an economic 
rationale for encouraging wider adoption of such practices. 
First, there is a growing literature that not all firms adopt 
the most efficient practices, especially due to a lack of 
information. And due to the rapidly changing nature of our 
labor force, it may well be that managers are not aware of 
that, they overstate the potential costs and understate the 
potential benefits of adoption.
    In addition, wider adoption of the practices could lower 
the cost to all firms, making it, therefore, beneficial for 
everybody. And we know that flexible workplace practices likely 
encourages more labor force participation among very valuable 
workers who can contribute their skills and knowledge to our 
labor force.
    Finally, another social benefit that may not be fully 
appreciated is it does have externalities in terms of reducing 
commuting time and reducing congestion costs.
    So the Council of Economic Advisers (CEA) report on 
workplace flexibility finds that flexible work arrangements do 
promote healthier, happier, more productive workers, which may 
in turn help firms' bottom lines. I would like to emphasize, 
however, that a factor that hinders a much deeper and better 
understanding of the benefits and costs of flexibility is the 
lack of data on the prevalence of workplace practices, 
flexibility of practices, and more research is needed on the 
mechanisms through which flexibility influences workers' job 
satisfaction and firm profits in order to help guide policy 
making and managers alike.
    Thank you very much for holding this very important 
hearing. I am happy to address any questions you may have.
    Senator Akaka. Thank you very much, Ms. Rouse.
    Mr. Foley, will you please proceed with your statement.

TESTIMONY OF JONATHAN FOLEY,\1\ SENIOR ADVISOR TO THE DIRECTOR, 
              U.S. OFFICE OF PERSONNEL MANAGEMENT

    Mr. Foley. Good afternoon, Chairman Akaka and Ranking 
Member Voinovich. I am pleased to be here today on behalf of 
John Berry, Director of the Office of Personnel Management, to 
discuss the work we have been doing at OPM in the areas of 
work-life balance and wellness for attracting, retaining, and 
empowering a 21st Century Federal workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Foley appears in the Appendix on 
page 36.
---------------------------------------------------------------------------
    I commend the Subcommittee for your leadership in 
supporting and honoring the important work of our Nation's 
public servants by holding this hearing during our annual 
Public Service Recognition Week. This year's theme, Innovation 
and Opportunity, gives OPM the opportunity to highlight our new 
Results-Only Work Environment (ROWE) and Campus Wellness Pilot 
Program.
    We all understand that work is a fact of life. For most of 
us, this will never change. What is changing, however, is the 
way we work, that is, when, where, and how we work. Technology 
has provided us with options we never imagined 20 years ago. 
Now, not only is it easier for us to do our work almost 
anywhere, it is easier for us to do our work anytime.
    The Federal Government offers a variety of flexible work 
arrangements to attract and retain the best and brightest 
employees in a competitive market. Telework is one of many 
flexibilities offered by the Federal Government. If implemented 
effectively, telework can make the difference between shutting 
down Federal Government services in emergency situations and 
continuing to operate with minimal interruption. Telework 
enables agencies and businesses to continue services and 
operations without jeopardizing the safety of its employees. In 
addition, OPM estimates that the Federal Government offset 
approximately $30 million per day in lost productivity during 
the February storms as a result of telework.
    I want to take this opportunity to reaffirm Director 
Berry's commitment to advancing telework in the Federal 
Government. OPM has a strategic goal of increasing the number 
of eligible Federal employees who telework by 50 percent by 
fiscal year 2011.
    As you are aware, Director Berry announced OPM's new 
Results-Only Work Environment Pilot Program last month called 
the Workforce Flexibility Initiative. ROWE allows employees to 
work whenever they want and wherever they want as long as the 
work gets done. Managers are expected to manage for results 
rather than process. This is a shift in culture from permission 
granting to performance guiding.
    OPM will be working with the creators of the ROWE strategy 
to implement the new program. Nearly 400 OPM employees, ranging 
from retirement and benefits claims processors to policy 
makers, including union and non-union employees and the 
Director's Office, are in the pilot and were selected to 
represent a cross-section of positions available in the Federal 
Government. Approximately half of the participating employees 
are based in Boyers, Pennsylvania, and half are in the 
Washington area.
    OPM is working with our unions and our General Counsel to 
implement a version of ROWE that complies with all current 
Federal laws. The pilot program will start in June, continuing 
through the end of the calendar year. If the pilot project 
increases employee performance and morale, as we hope, OPM will 
expand it within our own agency and encourage other Federal 
agencies to adopt this system.
    OPM recognizes that worksite wellness programs are also 
another way of attracting and retaining a strong Federal 
workforce. Last May, President Obama asked OPM and other 
Federal agencies to explore the development of worksite 
wellness programs that mirror best practice in the private 
sector. Private companies have achieved promising results. 
Published studies report savings averaging $3 for every $1 
invested through reduced absenteeism, improved productivity, 
and lower health care costs.
    The Campus Wellness Project involving OPM, General Services 
Administration (GSA), and the Department of Interior employees 
at their Washington headquarters will expand on services 
offered through existing health units and fitness centers, 
introduce new services such as smoking cessation and weight 
management, and ensure that employees who choose to join the 
program receive an annual health risk appraisal and the 
opportunity for individual coaching on healthy behaviors. We 
are currently using a competitive bid process to select the 
campus service provider.
    We are working with Health and Human Services (HHS) to 
identify and fund two additional wellness pilots on Federal 
sites outside the Washington area. These demonstration programs 
will be evaluated to better understand the results that can be 
achieved in the Federal work environment.
    OPM has set a high priority goal of requiring all executive 
agencies to establish and begin to implement a plan for 
comprehensive health and wellness programs by the end of fiscal 
year 2011. OPM also coordinates government-wide health and 
wellness activities, such as guidance for agency health 
promotion coordinators, physical activity challenges, worksite 
tobacco cessation programs, and Feds Get Fit.
    Thank you for holding this important hearing. I would be 
happy to address any questions that you may have.
    Senator Akaka. Thank you very much, Mr. Foley.
    Ms. Rouse, some people are skeptical that implementing 
work-life programs benefits employers and not employees. Your 
report indicates that a strong connection between flexibility 
and productivity has been established. What more should be done 
to help organizations, both public and private, understand the 
benefits of flexibility and implement work-life programs that 
capture those benefits?
    Ms. Rouse. I guess what I would say is I think one is that 
managers don't fully understand the potential benefits and the 
potential costs. But quite honestly, the literature of where 
these have been implemented is few and far between. It is 
growing. For example, there is a budding literature looking at 
the relationship between health and flexible workplace 
practices with some compelling studies done in, for example, 
grocery stores in Minnesota.
    But I think what would be very helpful and compelling to 
me, at least if I were an employer, is if there were a wider 
set of studies at firms that look like mine, because one of the 
things that I think we know about these practices and about 
business practices is that it is not clear that one size fits 
all. For example, manufacturing firms have their own challenges 
in implementing such practices, although at the President's and 
the First Lady's Work-Life Balance Conference, we heard some 
very compelling ways in which manufacturing firms have 
implemented more flexibility into their work schedules.
    But I think what would be helpful is for such programs to 
be rigorously studied in manufacturing firms, service firms, 
and small firms. A lot of small firms think that it can't help 
them, although the data suggest that at least when we look at 
not the tiny micro-firms, but at firms more than 50 workers, 
that they are adopting it at about the same rate as larger 
employers. The question then is what are those firms doing and 
why can't others learn from them?
    So I think the evidence base is growing, but I think it 
could be much stronger and therefore, more compelling for other 
employers.
    Senator Akaka. Mr. Foley, some agencies have been reluctant 
to implement many of these work-life programs. What is OPM 
doing to alleviate agencies' concerns and encourage work-life 
programs governmentwide?
    Mr. Foley. One of the things OPM is doing, Senator, is 
trying to provide guidance to agencies on work-life programs, 
on the benefits of the work-life programs and encouraging their 
wider adoptions, spreading the word, if you will. Another 
thing, as Ms. Rouse is indicating, is to inform people of the 
research and hold workshops on the benefits of work-life 
programs so that people understand as an employer what it 
brings to them in terms of improved productivity and morale 
boosting. So OPM is doing what it can to provide information 
and guidance to agencies.
    Senator Akaka. As you know, Mr. Foley, I am very interested 
in expanding the use of telework in the Federal sector. In your 
testimony, you mentioned that the White House Task Force on 
Telework sponsored a forum in March to identify barriers to the 
adoption of telework in the Federal Government. When will the 
results of this forum be released and what are the next steps 
for the task force?
    Mr. Foley. I will need to get back to you in terms of an 
exact date for the results of the forum.\1\ I don't have that 
with me. But one of the things that did come out of the forum 
was a wealth of ideas and enthusiasm for these innovations and 
so that is being documented. But I would have to get back to 
you in terms of the next steps.
---------------------------------------------------------------------------
    \1\ OPM is currently finalizing the report and expects to have it 
available in September 2010.
---------------------------------------------------------------------------
    Senator Akaka. Fine. That will be fine.
    Ms. Rouse, your report notes that companies and the economy 
could benefit from the wider use of workplace flexibilities 
because they improve recruitment, retention, health, and 
productivity. As you know, the Federal Government currently 
does not offer paid parental leave. From your experience 
studying private sector leave policies, what do you believe the 
overall effect of providing paid parental leave would be?
    Ms. Rouse. Well, here is one of the places where I think we 
need to understand more. Among the studies that we have looked 
at, there were very few that really focused on paid parental 
leave per se. But I think what we are learning through the 
research is that flexibility is very important, and we 
certainly know that it is important for parents to be available 
for their children, especially now that we have more households 
in which children are being raised where both parents are 
working or a single parent is working. And so we know that it 
is important for parents to have that kind of flexibility. I 
think we need more studies to really understand the value of 
that one particular form of flexibility.
    Senator Akaka. Thank you.
    Mr. Foley, as your testimony states, worksite wellness 
programs have shown encouraging effects on employee health and 
absenteeism. If the initial project and the two additional 
prototypes requested through the fiscal year 2011 budget show 
similar results, would you anticipate broadly expanding this 
model Campus Wellness Program?
    Mr. Foley. Before I answer that, Mr. Chairman, I wanted to 
let you know that the report from the Forum on Telework will be 
available within the coming months.
    We will be carefully evaluating the pilot wellness 
programs. We want to make sure that they work in the Federal 
work environment. We have different rules and different 
operating procedures in some environments, and so we wanted to 
make sure of that, so we will be evaluating it carefully.
    We would anticipate spreading the word and spreading those 
programs across Federal agencies. We are asking Federal 
agencies to submit reports--I am sorry, plans, in the beginning 
of fiscal year 2011 that will indicate how they plan to grow 
those programs and achieve the benefits that they have shown.
    There are a variety of initiatives underway in Federal 
agencies and so there is not one-size-fits-all with worksite 
wellness and we are looking to encourage agencies to develop 
plans and programs.
    Senator Akaka. Thank you, Mr. Foley. Senator Voinovich, 
your questions.
    Senator Voinovich. Mr. Foley and Ms. Rouse, while our 
economy provides a golden opportunity to hire talented Federal 
employees, our deficit requires some tough choices. The Federal 
Government spends, on average, $100,571 per employee for salary 
and benefits. That is a figure that to me was almost startling. 
Benefits are 36 percent of total compensation. What guidance do 
you have as the Subcommittee considers whether addition of 
benefits, such as through a paid Parental Leave Act at a cost 
of just under $1 billion over 5 years, are appropriate at this 
time? In other words, can we afford additional benefits?
    It is really interesting to me that if you look around the 
country and look at what is happening in State government in 
terms of State government employees, it seems like our own 
employees, and I am a great booster of our employees, seem to 
be exempt from some of the things that others are experiencing. 
And when you consider last year that out of every $100 we 
spent, 41 cents was borrowed and our debt is almost at $13 
billion, and as far as one can see, we are not going to have 
balanced budgets, what kind of consideration is being made by 
OPM or your office, Ms. Rouse, in terms of the realities of 
what is confronting our Federal Government and the impact that 
it has in terms of the people who work for the Federal 
Government?
    Mr. Foley. I can start off in terms of what OPM is doing. 
We believe that the work-life programs need to be promoted 
because of the benefits that they bring in terms of increased 
productivity for the organization and ultimately in savings in 
terms of health care costs and that type of thing. So we think 
that these, if they are carefully managed and well implemented, 
programs hold a lot of promise addressing the cost issue that 
you raise, and that is what we are encouraging other agencies 
to do.
    Senator Voinovich. Ms. Rouse.
    Ms. Rouse. I was just going to say that, obviously, we know 
that the fiscal situation for the Federal Government is 
something that we will certainly need to be addressing, and it 
is important that Federal dollars be very wisely spent. The 
research to date--I really do want to emphasize I think we need 
more--does suggest that a dollar spent brings back more than 
that dollar spent.
    But I think we need to learn more and I would like to just 
highlight that in terms of paid parental leave, in the 
President's budget, there is a $50 million proposal for a pilot 
program for States to adopt paid parental leave programs and it 
would allow us to study whether we get the kind of economic 
benefit that at least some of the research suggests that we 
might get.
    Senator Voinovich. You just mentioned the proposed 2011 
budget, $50 million to kind of look at that situation. Was 
there anything in the 2010 budget in terms of work-life 
programs.
    Ms. Rouse. I would have to get back to you on that.\1\
---------------------------------------------------------------------------
    \1\ There was no specific line item in the President's FY2010 
budget for Federal work-life programs, although there was $2.6 million 
allocated to a pilot of wellness programs. While many agencies have 
work-life flexibility policies and programs, they are funded from their 
general administrative funds.
---------------------------------------------------------------------------
    Senator Voinovich. Mr. Foley, do you have any ideas in 
terms of money that was in the first budget that the Obama 
Administration presented to Congress?
    Mr. Foley. I know that the Worksite Wellness Program that 
we are getting underway is funded in the 2010 budget, the first 
pilot program, and then the follow-on pilot programs are in the 
2011 budget.
    Senator Voinovich. Well, it seems to me that if you are 
looking at the programs, that this cost-benefit should be 
really looked at. When I was governor, I remember people used 
to come to me and they would say, in terms of insurance 
benefits, and I would say, fine, I think it is a great idea. 
But if we add that, it is going to really increase our cost, 
and because of that cost, it means that we are going to have to 
pay more for it, or in some instances, people who are paying 
for part of it may not be able to afford it anymore. So there 
is this constant need to look at costs.
    My suggestion would be to look at this wellness program I 
know that we have had several presentations, I think you even 
mentioned, for every dollar you spend, there are $3 in savings. 
Those are the kinds of things I think that you ought to be 
emphasizing right now, particularly in light of our financial 
situation, because it is really critical right now. Of all the 
things that people talk to me about today, they are interested 
in their job, and they are really worried about where our 
Federal Government is going in terms of spending.
    Ms. Rouse, what does your research show are the most valued 
work-life benefits, say, by young professionals with newborn or 
young children, middle-aged workers with college-aged children 
and aging parents? Do you have anything you can give us now on 
that?
    Ms. Rouse. I don't believe that we actually looked by age, 
but it is clear that employees and potential employees very 
much value having some flexibility, and I would imagine it is 
largely the flexibility in hours and timing that is the most 
important, although for others, flexibility in when they work 
is important as well. But we didn't look specifically by age.
    Senator Voinovich. Mr. Foley, some have suggested cafeteria 
plans as a way to provide employee flexibility in managing 
their benefit dollars, giving them a smorgasbord. Are there 
best practices from cafeteria plans that OPM could implement 
for Federal employees?
    Mr. Foley. Certainly, we have looked at the market in terms 
of the different plans that are available. There are a wide 
variety of choices already in the Federal Employees Health 
Benefits Program (FEHBP). So currently, Federal employees can 
choose from high-deductible plans to standard plans, so that 
there is a considerable flexibility now in term of their health 
plan choices and the benefits that they confeur.
    Certainly, a growing trend is that private companies are 
looking for their health insurers to vary premiums by either 
participation in a wellness program or achievement of results 
in wellness programs. Currently, the way that our law is 
structured, as you would know, the benefit--the employee 
contribution is fixed in law, so that is something that would 
need to be looked at if we were to go down that route. I think 
it is still early in that area in terms of actually varying 
premiums based on behavior and there are some risks associated 
with that. So we are looking right now at non-monetary 
incentives in the pilots that I have talked about, ways of 
seeing how far we can get with encouraging employees to adopt 
healthy behaviors that way.
    Senator Voinovich. In other words, if we went the route of, 
say, Safeway or other companies that are out there that are 
really getting into this, Proctor and Gamble and so forth, that 
if we wanted to do an experiment, we would have to change the 
law in regard to that particular agency that we would be doing 
this with so that we could get kind of an idea of what impact 
it has?
    Mr. Foley. In terms of employee contribution, yes, that is 
correct.
    Senator Voinovich. So we can't do that on kind of a pilot 
basis?
    Mr. Foley. Not that I am aware of.
    Senator Voinovich. OK. Thank you.
    Senator Akaka. Thank you, Senator Voinovich.
    Ms. Rouse, certain industries such as manufacturing have 
been reluctant to adopt flexible work options because these 
options are more difficult to successfully integrate into their 
business models. You mentioned that there are companies in 
these industries that have successfully adopted flexible work 
policies. Do their experiences hold any lessons for the Federal 
Government?
    Ms. Rouse. Again, I think this is a situation where there 
is not going to be one set of policies or lessons for the 
Federal Government as it is a large employer with different 
types of workers.
    One of the things that we see in manufacturing is that, 
especially for workers on the production line, those workers 
need to be physically where they are at the time that they need 
to be there in order to complete the production process. So one 
of the things that firms have tried to do is to train workers 
in the step that comes before and the step that comes after the 
part that they are responsible for so that they can compensate 
if their colleague needs to be absent for some period of time 
without disrupting the entire production process.
    Another strategy that we highlight in the report is the use 
of retirees who can step in if a worker is going to be absent 
for a day or possibly even a few hours. These retirees can step 
in on short notice and are already familiar with the production 
process and therefore can substitute for that worker.
    Senator Akaka. Mr. Foley, I would like to hear more about 
your Results-Only Work Environment Pilot Project. How will you 
measure employee performance, and do you believe this model 
could be translated to other agencies?
    Mr. Foley. The performance metrics that we have in place 
will be used in the ROWE Program, the ROWE Pilot Program, so we 
won't be changing the performance metrics, but we will be 
carefully monitoring and looking at those with a heavy emphasis 
on achieving the same results or better results through the 
employees in the pilot program.
    We have deliberately chosen a diverse group of employees 
that reflects the different work environments that we have--
policy analysts and we also have retirement benefit officers 
who work on a case-by-case basis where productivity might be 
more easily measured. So we are trying to look at a typical OPM 
workforce, at least in this case, and evaluate it to understand 
what the different impact is across different work settings.
    The evaluation will be available early next year and we 
really hope to learn from that and then have discussions with 
other agencies about this. It is a very significant experiment 
in terms of the culture change that we are calling for and so 
it is not something that we take lightly and we want to make 
sure that we can show positive results to share that with other 
Federal agencies.
    Senator Akaka. Mr. Foley, I understand that OPM did not 
request special demonstration project authority and is 
operating the Results-Only Pilot under current law. Please 
discuss the challenges you have identified as you prepare to 
begin this pilot program, as well as any changes to law you 
believe would be needed if this project were expanded.
    Mr. Foley. Yes. We are not calling for any changes to 
current Federal law and I think that is an appropriate way to 
experiment with this. We are looking at, particularly at the 
counting of hours, the 80 hours per pay period as an issue that 
we would hope the evaluators would look and comment on that in 
terms of if there are recommended changes if one is working in 
a ROWE environment.
    There are also other rules, such as core hours, so being 
available for 2 hours on two designated days per period. Again, 
these are some things we want to look at and test and 
understand, are they barriers or do they matter? Do they get in 
the way or not?
    Obviously, in terms of culture change, we are looking at 
attitudes and employee morale, so trying to understand the 
attitudes of workers and managers to this new environment.
    Senator Akaka. Mr. Foley, OPM has contracted with Deloitte 
to provide an outside analysis of the Results-Only Pilot. What 
outcomes does OPM hope to see from this review to show the 
pilot has been successful?
    Mr. Foley. Again, with the emphasis on results--we are 
looking to see, is there improved productivity? Is there 
improved results from the work, from this environment, changed 
environment? So trying as best we can to measure that. We are 
also looking at employee morale and employee attitudes to work. 
Many of the other environments that the ROWE-type model has 
been tried, there have been improvements in employee morale and 
productivity, so we will be looking at those. There also appear 
to be tangential benefits in health habits and sleeping and 
that kind of thing.
    Senator Akaka. Ms. Rouse, you have stressed that more 
research into work-life programs is needed. Will the Council of 
Economic Advisers be doing additional research and releasing 
additional reports on the economic benefits of these programs?
    Ms. Rouse. We do not conduct our own original research, but 
we are definitely working with other members of the 
Administration. There is the Work-Life Conference that we held 
last month. There are groups that are starting to work with us 
where they may be generating additional research themselves, 
pilot programs, working with employers to stand up programs, 
and studying those programs for the cost-benefit analyses and 
the impacts on the employers as well as workers. So we will be 
eagerly following those and are happy to summarize them in a 
subsequent report.
    Senator Akaka. Thank you. Thank you very much, Ms. Rouse. 
Senator Voinovich.
    Senator Voinovich. What percentage of our workforce are 
subject to collective bargaining agreements?
    Mr. Foley. Off the top of my head, I don't have that 
figure.
    Senator Voinovich. Well, the President of the National 
Treasury Employees Union (NTEU) is here. Maybe we will get that 
in her testimony. I would be interested in that. The thing is 
that it is my understanding that in terms of salary benefits, 
those are not negotiated in the collective bargaining 
agreement. That is set by Congress, is that right? The wages we 
pay our Federal employees are not subject to collective 
bargaining. We set that by the statute and that is what it is.
    Mr. Foley. Yes.
    Senator Voinovich. OK. How about health care benefits? Is 
that set by statute or is that negotiated?
    Mr. Foley. The health care benefits as broadly, they are 
set in statute in terms of the contribution amounts, yes----
    Senator Voinovich. So it is by the statute. You don't 
negotiate the participation of the employees? If the Congress 
decides that they are going to pay 35 percent or whatever it 
is, that is by law rather than by negotiation?
    Mr. Foley. That is correct.
    Senator Voinovich. OK. That wasn't the case in State 
government. I know when we did, I think, for instance, money 
for training, we negotiated that and we would list pay 
increase, but if they put a nickel in, we put a dime in for 
training because we thought it was important and our unions 
thought it was important. When I came in, our health care costs 
were going up, like, 23 percent a year and we wanted to go to 
preferred provider because we thought we would save money. And 
so what we did was, again, negotiated with the union and said, 
if you are willing to go along with this, we will reduce the 
amount of money that you pay for your health care. That would 
involve the unions in these discussions.
    Now, both of you have talked about some new ideas, and I 
know that we have talked with Mr. Berry about some of his ideas 
in terms of the workforce and so forth. What I would like to 
know is just how much participation in some of the discussion 
that is going on have you had with our major unions, because I 
think I would be interested in knowing that.
    Mr. Foley. Well, certainly the ROWE initiative that we are 
implementing at OPM has been discussed and is being discussed 
with the two locals that are participating in that project, and 
also the Telework Thought Leadership Forum included 
representation. So there is an effort to have those discussions 
and have them be a part of the initial phases and the planning 
of these initiatives so that the issues that they raise can be 
measured and evaluated in the evaluation.
    Senator Voinovich. Well, I think that is really important, 
because so often what happens is that because you don't have 
the consultation, that sometimes things are promoted and the 
unions are very unhappy about it, and then it just becomes a 
stalemate here in Congress. I know he has got some ideas, and 
you have, and so forth, but I think the more you can work with 
the unions, the better off I think all of us are going to be. 
Mr. Chairman, I have no further questions.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I want to thank our panel for your valuable testimony. 
Before I ask the second panel to come forward, I want to tell 
you that your responses have been helpful to us. As you know, 
we are trying to set up conditions where the Federal Government 
can be attractive to people, especially young people in our 
country. We need to work with educational institutions, as 
well, to try to reach out and attract some people to the 
Federal workforce. And, of course, as we continue to mention, 
to continue to make the Federal Government the choice employer. 
We can do that by working together and we look forward to 
information you can give us to help us do that. So thank you 
very much to our first panel.
    Mr. Foley. Thank you.
    Ms. Rouse. Thank you.
    Senator Akaka. I would like to ask the second panel to 
please come forward.
    I want to welcome our second panel. On this panel this 
afternoon, we have Kathy Lingle, Executive Director of the 
Alliance for Work-Life Progress at WorldatWork. Also, Max 
Stier, the President and CEO of Partnership for Public Service, 
Colleen Kelley, President of the National Treasury Employees 
Union, and Joe Flynn, Vice President of the American Federation 
of Government Employees.
    It is, as you know, the custom of this Subcommittee to 
swear in all witnesses, so I would ask all of you to stand and 
raise your right hand.
    Do you swear that the testimony you are about to give this 
Committee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Lingle. I do.
    Mr. Stier. I do.
    Ms. Kelley. I do.
    Mr. Flynn. I do.
    Senator Akaka. Let the record note that the witnesses 
answered in the affirmative.
    Let me also remind all of you that although your oral 
statement is limited to 5 minutes, your full written statement 
will be included in the record.
    Ms. Lingle, please proceed with your statement.

    TESTIMONY OF KATHLEEN M. LINGLE,\1\ EXECUTIVE DIRECTOR, 
         ALLIANCE FOR WORK-LIFE PROGRESS AT WORLDATWORK

    Ms. Lingle. Chairman Akaka, Ranking Member Voinovich, and 
distinguished Members of the Subcommittee, thank you for the 
honor of testifying before you today on best practices in the 
field of work-life effectiveness. My name is Kathleen Lingle. I 
am the Executive Director of Alliance for Work-Life Progress at 
WorldatWork. I have been a work-life researcher, practitioner, 
and consultant for over 20 years.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lingle appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    During this week of public service recognition, I believe 
it is timely to have a robust dialogue about the importance and 
value of developing a coherent strategy for Federal work-life 
programs. Numerous studies have shown that the quality of 
workers' jobs and the supportiveness of their workplaces are 
key predictors of worker job productivity. We have heard a lot 
about that from our first panel. It also contributes to job 
satisfaction, commitment to employers, and more positive mental 
and physical health outcomes.
    For the past 35 years, most, if not all, Federal agencies 
have developed an impressive variety of supports for everyone 
who works to help them manage their dual agenda throughout the 
career life cycle. In fact, what is interesting is the Federal 
Government exerted leadership in work-life programs long before 
these innovations were adopted in private industry. However, 
what is striking today is that, for the most part, the Federal 
sector is not harnessing the full power of work-life 
effectiveness as the most inexpensive and intrinsically 
motivating driver of attraction, engagement, and retention 
available in the 21st Century.
    The notable gap in the Federal environment vis-a-vis 
private industry is a failure to deploy work-life as an 
overarching organizational strategy, one that has a 
demonstrated capacity, as we have heard, to engage the minds 
and hearts of any labor force in any sector. In private 
industry today, employers compete to be perceived as best in 
class because such employee-friendly behavior literally pays 
itself many times over.
    In WorldatWork's 2007 survey, ``Attraction and Retention: 
The Impact and Prevalence of Work-Life Programs,'' we found 
that a successful work-life portfolio can result in tangible 
increases in attraction and retention of the kind of talent 
needed for organizational success. This portfolio that I am 
referring to includes seven categories of work-life practices, 
several but not all that have been mentioned so far. These 
include dependent care, paid and unpaid time off, health and 
wellness, community involvement, financial support, workplace 
flexibility, and culture change initiatives.
    These beneficial results that accrue from the application 
of such a portfolio, an integrated portfolio, are not just 
limited to the private sector. Data show similar outcomes for 
public sector employees. I know my fellow witness, Mr. Stier, 
will also speak to this, but according to the Best Places to 
Work in the Federal Government Report by the Partnership for 
Public Service, work-life balance and a family-friendly culture 
are two of the ``best in class'' categories used to rank 
Federal agencies.
    And it is not just one demographic group that values and 
benefits from these programs. Achieving success both at home 
and at work is important to everyone. From experienced workers 
in their 60s to students just graduating from college, research 
shows that work-life programs appeal and support workers in 
multiple generations.
    Also, no longer are work-life programs seen through a 
gender lens. Both women and men experience work-life conflict, 
and having flexibility in their work schedules is an increasing 
priority as they struggle to balance family and work.
    Director John Berry has it right. In order for the Federal 
Government to become a leader in work-life programs, you must 
consider the big picture. Instead of pursuing one discrete 
work-life program after another in relative isolation, I 
recommend that the entire exercise be ratcheted up a notch and 
considered in its entirety as one coherent people and business 
strategy.
    Using the work-life portfolio as the well-tested road map 
it has become for employers everywhere, all of the component 
elements of policy and practice required to meet the needs of 
Federal workers will fall into place. Any important missing 
pieces will become evident and can be developed as necessary.
    For the sake of time, I have included numerous examples of 
best practices and specific recommendations in my written 
testimony and would be happy to share them with you during 
question and answers.
    In closing, I look forward to working with the Subcommittee 
and the Administration as you develop work-life programs that 
ensure that the Federal Government attracts, retains, and 
empowers a 21st Century workforce. Thank you again for the 
opportunity to testify on this important issue.
    Senator Akaka. Thank you very much, Ms. Lingle.
    Mr. Stier, will you please proceed with your statement.

   TESTIMONY OF MAX STIER,\1\ PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, PARTNERSHIP FOR PUBLIC SERVICE

    Mr. Stier. Thank you very much. This is an opportune time 
for this hearing and there are no better two people than the 
two of you, Chairman Akaka and Senator Voinovich, with whom to 
have this conversation. I consider you the dynamic duo of good 
government, so it is an honor to be here especially during 
Public Service Recognition Week.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stier appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    My interest here is to see how we move the ball forward. I 
think there is widespread agreement that flexible work 
arrangements are important in terms of productivity. Senator 
Voinovich, I think you, as usual, hit the nail on the head in 
terms of the lens through which we need to be viewing this. How 
do we provide more cost-effective and better service to the 
American people? This conversation has to be about how we do 
that. The evidence, I think, is strong to suggest that there 
are a lot of things we can do with respect to flexible work 
arrangements that would get us there.
    To me, there are several key questions. What are the 
barriers that are preventing us from getting there? If there is 
a consensus that we need to make this happen, why isn't more 
happening? What are the specific things we can do about it?
    On the barriers, I would suggest that there are four 
important barriers. The first is manager resistance, and this 
is not only about training.
    The second is that there is poor performance measurement 
right now in government so the proxy for actual performance is 
physical presence. People don't actually know what good work 
is, and therefore, they think because they can see somebody, 
they are getting work out of them. That is something we have to 
change. This, I think, is an issue that is more substantial 
than even the flexible work arrangement conversation. We need a 
better appreciation and understanding about what performance is 
in the public sector in order for us to be able to address 
these issues and others.
    Third, there are clearly issues around security of 
information that are technology-based.
    And fourth and finally, I think there is an important issue 
around public perception. We are losing the battle right now 
with the American public about the importance and value of 
government service and we need to make sure that flexible work 
arrangements are seen as a mechanism of actually doing better 
for the American public as opposed to simply another benefit 
for public workers. That is one of the key barriers we also 
need to address.
    So I would present six things we might do going forward. 
The first is to note that this is in draft form. We are 
currently doing research on the subject matter with Booz Allen 
Hamilton. We will be issuing a report in the next several 
months that will be much more complete and comprehensive, but 
let me give you some of our initial findings.
    First, clearly, I think the legislation, particularly 
around telecommuting, that you have in place needs to be 
passed. It needs to be passed, but I hope that you will pass it 
and you will stay on top of this issue even after passage, 
because that legislation will improve the process, but will by 
no means solve it, and we have a lot of work to do beyond that.
    Second, we need to raise our sights. I think, very 
importantly, there is a concrete goal that OPM has set about 
raising the telecommuting numbers by 50 percent by next year. 
In truth, we have to be doing even much more than that in the 
next year and beyond. We have companies like IBM that have 40 
percent telecommuting. In the government right now 5 percent of 
eligible workers are telecommuting. Overall, the Patent and 
Trademark Office (PTO) is at the top at 80-plus percent, but 
agencies like the Department of Homeland Security (DHS) and the 
Department of Defense (DOD) have less than 3 percent of 
eligible workers telecommuting. So we need to actually set a 
mark that is much higher, and I would argue for around the 40 
percent that IBM is doing.
    Third, we need to build from best practices. There are 
agencies like Patent and Trademark Office that are doing it. We 
need to understand how they are doing it and get it adopted 
elsewhere. The best way of spreading change in government is by 
finding other examples in government where it is working.
    Fourth, we have opportunities around change that is already 
taking place. The Department of Homeland Security is looking at 
new space options. If you look at the Patent and Trademark 
Office story, they were at 10 percent telecommuting in 2001. 
They are now at over 80 percent, and that happened around their 
movement to new space. I think we could imagine GSA requiring 
that there be real telecommuting plans when they provide new 
space for agencies. I am happy to talk about that further, but 
I am trying to make my time limit here.
    So fifth, we are going to need to invest some dollars up 
front. We heard a little bit about the wellness program, the $2 
million-plus that Director Berry has invested. This is a matter 
of front-end money that is necessary to get the stuff rolling, 
but we will have back-end payoff of a lot larger significance.
    And sixth, along the same lines, we need to do more 
piloting. We need to do some more demonstration work in 
government. The ROWE Project is fascinating. This is a two 
million-person organization. We need to have more 
experimentation to understand what is possible and what is 
going to work, and I doff my hat to Director Berry on ROWE. We 
need to make sure that we combine those pilots with real solid 
data gathering protocols so we can prove that flexible 
arrangements work and we understand how to replicate it them.
    So thank you very much, again, for inviting me here.
    Senator Akaka. Thank you so much, Mr. Stier.
    Colleen Kelley, will you please proceed with your 
statement.

TESTIMONY OF COLLEEN M. KELLEY,\1\ NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you, Chairman Akaka and Ranking Member 
Voinovich. As the National President of National Treasury 
Employees Union (NTEU), representing over 150,000 Federal 
employees in 31 agencies, I very much appreciate you holding 
this hearing on this subject, especially during Public Service 
Recognition Week.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kelley appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    The Federal Government is the Nation's largest employer, 
but today, the Federal Government is losing ground in areas 
that are very important in attracting, retaining, and 
empowering its workforce. We want to bring back a leadership 
role to the Federal Government and make it the employer of 
choice in the United States.
    Dramatic changes in the workforce in the last 40 years have 
created what Workforce Flexibility 2010 calls a work-family 
mismatch and conflict. Employers who follow dated policies and 
practices that limit workplace flexibility do not serve the 
interests of either the employer or the employee. And when the 
employer is the Federal Government, it does not serve the 
interests of the citizens, either.
    NTEU is very enthusiastic about the endorsement of flexible 
work arrangements by the Director of OPM and by the White 
House. We would like to see flexible work arrangements as the 
standard operating procedure in the Federal Government.
    In that regard, it is time for the Federal Government, as 
the largest employer in this country, to step up and make 
family leave real, not a mirage that just a few can afford to 
use. Being able to substitute any leave without pay under the 
Family and Medical Leave Act (FMLA) with 4 weeks of paid leave 
for the birth or adoption of a child will make a significant 
difference in the lives of both parent and child.
    A report by the Institute of Women's Policy Research (IWPR) 
in October 2009 states that younger workers demand greater 
workplace flexibility, and while many private sector companies 
are leading the way with paid parental leave packages, the 
current Federal benefits do not meet younger workers' needs. 
IWPR calculates that the Federal Government could prevent over 
2,600 departures per year among female employees by offering 
paid parental leave, preventing over $50 million per year in 
turnover costs.
    I would like to ask that their report, which I have a copy 
here, would be entered into the record for this hearing, if 
that is OK.\2\
---------------------------------------------------------------------------
    \1\ The report appears in the Appendix on page 90.
---------------------------------------------------------------------------
    Senator Akaka. Without objection.
    Ms. Kelley. As you know, the House has passed its paid 
parental leave bill last June, and that was passed on a 
bipartisan basis. With your leadership, Mr. Chairman, I would 
like to see your Committee pass Senator Webb's bill, S. 354, 
this summer on paid parental leave.
    NTEU has found that where agencies have good telework 
programs, which we have talked a lot about today, employees 
feel they can handle work-life issues much better than in 
agencies that are resistant to such programs. Given the 
convincing merits of the Akaka telework bill and the few 
remaining months in this session of Congress, we believe it is 
very important that the Senate act swiftly on this important 
legislation, and then we need to breathe life into telework and 
to make it a reality for the hundreds of thousands of Federal 
employees who do not have appropriate access to it today. That 
would be a triple win, a win for employees, a win for agencies, 
and a win for taxpayers.
    Wellness programs also contribute positively to work-life 
balance. This year's Federal Employees Health Benefits Program 
Call Letter contains several proposals by OPM to provide 
wellness programs for Federal employees, and in addition, OPM 
informed the carriers that coverage of dependents has been 
extended to age 26 by the recently passed health care law, and 
that effective date will be January 1, 2011. A longtime NTEU 
initiative, the age 26 coverage will provide a much needed 
safety net for those dependents just starting out their 
careers, often without health insurance, and we would like to 
explore the possibility of an earlier start date.
    Under your able leadership, Senator Akaka, S. 372, the 
Whistleblower Protection Enhancement Act is also ready for 
floor action. This bill represents years of work in addressing 
gaps in whistleblower protection, and for the first time will 
extend whistleblower protection statutorily to Transportation 
Security Officers (TSOs) at the Transportation Security 
Administration (TSA). NTEU stands ready to assist in whatever 
way necessary to see this bill successfully passed in the 
Senate.
    NTEU has found that work-life balance is the easiest to 
achieve when employees have a voice in their workplace. If the 
workers can have a collective voice, the effect is much 
stronger. Sadly, that is not the case at TSA. We would also 
like to see a Senate version of Representative Nita Lowey's 
bill, H.R. 1881, introduced that would give TSOs the right to 
collectively bargain. While we wait for a new administrator to 
be named, we ask for your help in persuading the Department of 
Homeland Security to grant collective bargaining rights through 
a directive now.
    NTEU wants the Federal Government to be a leader in the 
movement in order to provide a better work environment for 
employees and we will do all we can to promote the programs 
that are passed by Congress and endorsed by the Administration 
that further our members' ability to balance the demands of 
their jobs with the demands of their families and also to look 
after their own health.
    Thank you, and I would be glad to answer any questions you 
have.
    Senator Akaka. Thank you very much, Ms. Kelley.
    Mr. Flynn, will you please proceed with your statement.

  TESTIMONY OF JONATHAN P. FLYNN,\1\ VICE PRESIDENT, AMERICAN 
               FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Flynn. Mr. Chairman and Senator Voinovich, on behalf of 
the American Federation of Government Employees (AFGE), which 
represents more than 600,000 Federal employees, thank you for 
the opportunity to testify today regarding work-life programs 
which would attract, retain, and empower the Federal workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Flynn appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    In the 21st Century, one can easily see the effects that 
home computers, email, smart phones, and cell phones have in 
enabling a 24/7 work environment. Employees are looking for 
balance between work and their personal and family demands, and 
if the Federal Government fails to provide this balance, 
agencies risk losing valuable employees to employers who offer 
more flexibility.
    AFGE supports the telework legislation, Mr. Chairman, that 
you and the Senator have introduced, as well as the companion 
legislation in the House. Both bills require that all Federal 
workers be considered eligible for telework unless the agency 
shows they are ineligible. Under current law, Federal workers 
must overcome this presumption that they are ineligible for 
telework unless the agency determines otherwise.
    I would like to give you two examples of why your 
legislation is so important. AFGE members working at agencies 
with established telework programs, such as the Centers for 
Medicare and Medicaid Services and Citizenship and Immigration 
Services, report that those agencies have self-imposed an 
arbitrary cap on the number of workers allowed to participate 
in telework. At the National Science Foundation (NSF), although 
AFGE succeeded in negotiating a telework program, the union had 
to trade off the right to file any grievances on the matter 
regardless of their merit. This makes it almost impossible to 
ensure that telework at NSF is applied fairly and uniformly to 
employees.
    I would like to talk to you just very briefly about the 
Results-Only Work Environment. AFGE Local 32 is working closely 
with Director Berry's office in the implementation phase of the 
Results-Only Work Environment Pilot at OPM. This is another 
flexible workplace initiative which allows employees to work 
when they want, when they can, where they want, as long as the 
work gets done, and that is the key, as long as the work gets 
done.
    One of the work groups selected to participate has had 
major workload processing problems for some time, and as a 
result of the ROWE Pilot Project, joint management and labor 
forums have been established to address these problems, and 
many of them to date have been resolved. If the ROWE Pilot 
works with this particular work group, Mr. Chairman and 
Senator, it can work with any other office.
    We particularly appreciate Director Berry's efforts. He 
truly leads by example. Mr. Chairman and Senator, based on my 
experience as a Federal employee and a union representative, 
whether we are talking telework, wellness programs, or the ROWE 
Program or similar-type programs, I cannot overstate or 
overemphasize the importance of having an agency champion of 
these programs at the top. That is critical to the success of 
these programs.
    We urge agencies--with regard to the wellness programs, 
workplace wellness programs have been around for a number of 
years. Wellness programs include weight loss, physical fitness, 
smoking cessation, and stress management, which help reduce 
health insurance premiums, workers' compensation premiums, and 
workplace injuries and illness. Employees also see the benefit 
in terms of increased productivity, improved employee 
relations, and employee morale. Healthier workers take fewer 
days off for illness and may experience less severe symptoms. 
We urge agencies establishing wellness programs to ensure that 
they work with their unions, where you have a union, in the 
development and implementation of these programs.
    Paid parental leave--despite the protections of the Family 
and Medical Leave Act, many Federal workers must choose between 
a paycheck and meeting their family obligations because they 
currently have no paid parental leave. The House bill passed in 
the Senate and its companion introduced by Senator Jim Webb 
would provide Federal employees 4 of the 12 weeks of family and 
medical leave as paid leave upon birth and adoption of a 
fostering child. Mr. Chairman, the time has come for the 
Federal Government to set the standard for U.S. employers on 
paid parental leave. AFGE urges the immediate Senate passage of 
S. 354 so that the bill can be sent to President Obama by the 
end of the year.
    Mr. Chairman, that concludes my statement. Myself, as well 
as AFGE, would be happy to answer any questions or further any 
other information you might need. Thank you, sir.
    Senator Akaka. Thank you very much, Mr. Flynn.
    Ms. Lingle, as I noted in my opening statements, I believe 
the Federal Government needs work-life programs to stay 
competitive with the private sector. Your testimony describes a 
number of best practice programs in the private sector. Does 
your research show that more organizations are offering work-
life programs now than in the past?
    Ms. Lingle. Well, I have described a portfolio with several 
categories in it, so the answer is there has been growth in 
some of those categories and relative shrinkage in others, 
particularly over the last 18 months as we faced the worst 
recession we have had since the 1930s. Things that require a 
great deal of money, as you might expect, have been curtailed 
somewhat. Things that have no direct cost, like flexibility, 
community volunteering, and some other aspects of the 
portfolio, have grown.
    So we have seen change, but in general, since flexibility 
seems to be a great topic of discussion in this forum, that, we 
haven't seen a great deal of retrenchment on. In fact, we are 
seeing some experiments in both the public and private sector 
that we have never seen before where employers are actually 
mandating flexibility rather than waiting for employees to ask 
for it. So we have got some very interesting experiments going 
on at the moment.
    Senator Akaka. Thank you. As many of you have mentioned--
and this is for the entire panel--some managers have been 
resistant to more flexible ways of managing employees. How do 
you believe we can overcome this resistance? Ms. Kelley.
    Ms. Kelley. I think there are a number of things that can 
be done. I think that the agency leadership at the highest 
level, at the middle level, at the front-line level all need to 
model that behavior. They need to not only talk about it, but 
they need to recognize and reward managers who support 
employees in flexibility and in doing telework, and not just 
talk about it. I think that agencies who have been successful 
should be asked and expected to be out there talking to other 
agencies about their very real experiences and about their real 
successes.
    I think when there are productivity savings, which in many 
cases there will be, that the agencies should be able to retain 
what they save and reinvest it in other agency programs. Most 
agencies that I am aware of have a lot of work they would like 
to do, but they don't have the resources to do it. So rather 
than see them have productivity gains and then take those 
savings away from them, let them reinvest those in the 
workforce as well as in the work of the agency.
    But I think it is a big culture issue. When I attended the 
White House forum, it was clear to me from the private sector 
companies who do this and do it well that they all recognize it 
as a culture change. It is not just about issuing a memo or 
saying it is OK to approve it. It is about living it every day 
and not waiting for an employee to ask for the flexibility but 
to offer it to them.
    I know when I left that forum, I remember one of the 
opening sessions presenters, it was the CEO from Campbell's 
Soup, and when I heard him speak about telework and 
flexibilities and his workforce, I made myself a note that I 
know a few agencies that have managers they should detail to 
Campbell's Soup for a while because I think that it would help 
them with this culture issue, because I am more convinced than 
ever that really is what drives a lot of it.
    Senator Akaka. Thank you. Ms. Lingle.
    Ms. Lingle. There is a good history in showing evidence for 
the impact of training. If you are really going to culturally 
embed flexibility, it doesn't happen intuitively or without a 
great deal of work. There is something that pushes the culture 
about flexibility, and managers are not trained historically to 
deal with these kinds of issues. In fact, over the last 20 
years, we have taught human resource (HR) people in particular 
not to get into people's private lives, that is not where you 
go, and this takes art and skill. Both employees and managers 
actually need to be trained how to behave and how to proceed. 
That is one of the keys to success.
    Senator Akaka. Mr. Flynn.
    Mr. Flynn. Yes, Mr. Chairman. Once again, please let me 
emphasize the important of top management supporting these 
programs. That is critical. Legislation aside, negotiated 
agreements aside, if you don't have that support, the program 
will be undermined.
    The second piece is we have to change the paradigm of what 
supervisors are looking at. I think it was mentioned earlier, 
but you have to get away from the idea of measuring presence to 
measuring outcome.
    And third, I believe that you need to have a security 
confidential protocol in place where supervisors and managers 
are trained on it so that the fear of information being lost is 
overcome.
    And I think it comes down to this, two factors. Can the 
work be done in part at home? And is the equipment available 
for the employee to carry it out? And if those two conditions 
are met, it is real simple. Do it. Thank you, Mr. Chairman.
    Senator Akaka. Thank you. Mr. Stier.
    Mr. Stier. Mr. Chairman, you heard a whole bunch of good 
reasons that I think cover everything. I want to pick up on one 
thing that Ms. Kelley stated that I thought is a nice idea, as 
well, and that is more mobility. If you can actually have 
leaders and managers in government agencies see it work in 
other places, that would improve the ability to spread best 
practice across government.
    I believe everything that needs to happen in government is 
happening somewhere, but frequently in not many places. If we 
can give the talent in government the experience of seeing it 
work and feeling it work and having the opportunity to work in 
that work environment, then we increase the chances of it being 
adopted in other agencies.
    Senator Akaka. Mr. Stier, you had mentioned that many 
managers are not trained to successfully implement and oversee 
work-life flexibility programs. What recommendations do you 
have for Congress and OPM to ensure managers receive sufficient 
and effective training?
    Mr. Stier. Senator, this is something that obviously you 
have and this Subcommittee have worked on. I think we 
underinvest in the training and development of our managers and 
leaders and that is a source of many challenges that we face 
around the flexible work arrangements but also beyond that. I 
believe we need to see long-term investments in the training of 
the workforce.
    We need to see leadership commitment to it. It is not 
simply a matter of dollars. We actually need to see leaders in 
their own evaluation of their top management, prioritizing the 
need for investment in the workforce and in the folks that 
report to their direct reports.
    Ultimately, in terms of this Subcommittee, I think you can 
be looking at data points like the Best Places to Work 
rankings, manager satisfaction surveys that target specifically 
those managers, and ultimately, I hope, real performance 
metrics.
    So again, as Mr. Flynn stated, I believe at the end of the 
day, one of our key issues in the public sector is a need to be 
able to have very clear and direct communication about what we 
are trying to achieve and the role that individuals and teams 
play in getting there. If you have real-time performance 
information, I think you will have telecommuting to a greater 
extent and you will have better performance, ultimately. But I 
think we have some distance to travel there.
    Senator Akaka. Thank you very much. Senator Voinovich, your 
questions.
    Senator Voinovich. Yes. Mr. Stier, the Partnership for 
Public Service has been working a long period of time to 
highlight the opportunities that we have here in the Federal 
Government. I know one of the reasons why Sam Heyman formed the 
organization was he felt that more people ought to be going 
into public service. I was, as I mentioned, a little bit 
disappointed at the look at that at the John F. Kennedy School. 
Really, the numbers haven't really improved very much since the 
time we got started with this.
    Besides the antiquated archaic hiring system that we have, 
and hopefully we are going to get that changed this year--and I 
just want to make clear, the number of people I have met who 
wanted to work for the Federal Government and never heard and 
then got jobs and then heard, it is just amazing. In other 
words, because we are not communicating, we are losing a lot of 
good people. And then, by the way, the word gets out on the 
street that this thing is archaic and so people just say, I am 
not going to even bother anymore because of the anecdotal stuff 
that is out there among people who might be wanting to work for 
the Federal Government.
    But besides that, what other disincentives are out there, 
and in terms of work-life issues? Have you ever done an 
analysis of what it is that people are really looking for? 
Maybe, Ms. Lingle, you can look at it. What are the things that 
they really are looking for in terms of a future employer? Both 
of you can respond.
    Mr. Stier. I think Ms. Lingle hit it right to say that what 
is interesting is that, in many ways, what young folks are 
looking for, the same thing is true for more experienced folks, 
as well. The work-life balance issue is one that plays at the 
top of the list for great talent across the whole spectrum of 
experience. There are plenty of surveys out there that show 
that it is a prime issue for a lot of talented people. I think 
that is something that does matter and goes to the point here 
about enabling more flexible work arrangements. I think it is 
important that we focus on this not just for young people, but 
for that full range of experience.
    To my mind, there are three barriers that we have here. The 
first is that the talent market, by and large, doesn't even 
know about government service. It is not on their radar screen. 
If you ask most folks today to tell you what public service is, 
they will not include government service in their definition. 
So what used to be synonymous terms now has lost almost 
entirely government service from the equation.
    What we have found on the positive side, though, is that 
the more people know in the talent market about these 
opportunities, the more they like it, so that they find it to 
be meaningful work in which they can grow and develop and make 
a difference, and that is what is going to attract them.
    The second hurdle is the hiring process you mentioned, and 
I believe that the work that OPM and the Office of Management 
and Budget (OMB) is doing is vital, but honestly, I think it is 
going to take more than a year to make these changes. It is 
going to take a lot of work inside each and every agency to 
actually get the changes that will make a difference, and your 
hiring reform bill will help.
    And then the third issue is some of the stuff we are 
talking about today, what happens to folks when they are inside 
government, how they are managed, and, therefore, are they 
willing to stay and are they going to give of their very best 
efforts. The kinds of things we have talked about here will 
improve that third bucket.
    Senator Voinovich. Ms. Lingle.
    Ms. Lingle. Mr. Stier and I haven't had a chance to talk 
about this, but one of the suggestions I would make, and 
Senator Voinovich, your point is excellent, in private 
industry, you ask people what their needs are, and the value of 
the portfolio management aspect of work-life is that you can 
predict the various events and therefore the needs that an 
employer is going to have to meet over the next 6 months, 2 
years, 3 years, 5 years, i.e., the strategy.
    So one of my suggestions is that there actually be an 
augmentation, in between Administrations now, which are going 
to be annual, of the Employee Viewpoint Survey, what in our 
field we call a work-life needs assessment. What isn't done in 
the survey today, but it has been greatly improved, is actual 
usage and access to these various work-life issues. It is very 
important to know not just how satisfied are people.
    What we have found from other surveys in private industry, 
employees will answer that they are very satisfied with 
parental leave, with flexibility, and then you find out later 
they have never used them. It is sort of a halo effect. It is 
really important to find out, can people get to these things? 
How do they feel about that, and what is their experience and 
what are they lacking? That is a very critical point.
    Senator Voinovich. Ms. Kelley, do you have a list of things 
from people in terms of what attracted them to the Federal 
Government.
    Ms. Kelley. Well, in my experience, first and foremost, it 
is the mission of the agency that often draws the applicants 
even to the agency. After that, it is about, once they get 
through training, in pretty short order, it is about work-life 
balance. It usually starts by seeing what is happening around 
them in their agency and they see that in their occupation, 
they do not have access to Flexiplace or telework or to 
different work hours.
    But then, they get a broader range of information when they 
talk to neighbors and friends and relatives who work either for 
other agencies or for the private sector and realize that there 
is a whole other spectrum out there. And then the question is, 
why would the Federal Government, as the largest employer, not 
make those available?
    I also worry about these things not being expanded today, 
because I think for the next couple of years, the Federal 
Government will not see the turnover that it otherwise might 
because of the economy. But once the economy turns, and it 
will, I worry that we are going to lose a lot of the employees 
that we have, not through retirement but to private sector 
companies who have really put in place a much broader spectrum 
of work-life balance opportunities for employees. We need to 
worry about that.
    Senator Voinovich. That gets to the issue. We know what the 
situation is right now because things are tough out there. This 
is the worst recession since the Depression. A lot of people 
are out there looking for work. But let us go back to a more 
ordinary time, let us say 5 years ago when things were fairly 
good and the economy was working. Was the Federal Government's 
turnover rate more than the private sector?
    Ms. Kelley. I don't know. I would have to get those numbers 
for you.\1\
---------------------------------------------------------------------------
    \1\ According to the Bureau of Labor Statistics (BLS), the total 
turnover rates from January of this year were 3.6 percent for private 
employers. BLS does not provide turnover rates for the Federal 
Government separately.
---------------------------------------------------------------------------
    Senator Voinovich. I would like to find that out from 
staff.
    The other thing is that the percentage of people in the 
Federal workforce that are in collective bargaining, do you 
have any idea what the answer to that is?
    Ms. Kelley. I don't know the percentage.\2\ We will get you 
that number. But when you asked the question earlier, I was 
going to yell from my seat. When you said, how many Federal 
employees are covered by collective bargaining rights, I was 
going to say, not enough. [Laughter.]
---------------------------------------------------------------------------
    \2\ The Bureau of Labor Statistics reports that the percentage of 
the Federal workforce represented by unions is 33.2 percent. However, 
it also reports that the total number of Federal Government employees 
is 3.6 million, which we do not believe is accurate. Historically, over 
60 percent of the eligible Federal workforce was represented by unions. 
We believe that the BLS percentage includes non-elibile employees, such 
as managers. In both instances, we cannot verify this information. 
Perhaps your office can get more accurate information from the 
Congressional Research Service or directly from agencies.
---------------------------------------------------------------------------
    Senator Voinovich. I wouldn't expect you to say anything 
else. [Laughter.]
    The one thing that I would like to just affirm, Mr. Flynn, 
is the issue of Mr. Berry involving you in some of their 
discussions and ideas about changing things. From what I picked 
up from what you had to say, you seemed to be satisfied that he 
is really reaching out and that you are a participant rather 
than he is doing it all on his own and he is going to try to 
sell you on what he wants to do.
    Mr. Flynn. You are absolutely correct, Senator.
    Senator Voinovich. Thank you. Thank you, Senator Akaka.
    Senator Akaka. Thank you very much, Senator Voinovich.
    Mr. Lingle and Mr. Stier, in your testimony, you both 
suggest that changes need to be made to the annual Federal 
Employee Viewpoint Survey if we want to better understand the 
experience and needs of the Federal workforce. Would you please 
talk more about the changes you think are needed to this 
survey?
    Ms. Lingle. I mentioned before, I think it would be a great 
addition, either in the survey or an augmented survey which I 
would call a Technical Work-Life Needs Assessment, to get at 
access and usage. I think that would be useful information we 
don't currently have.
    Second, I would like to see the panorama of issues asked 
about in the survey to reflect the entire portfolio. There are 
pieces missing right now, like community outreach, 
volunteering, etc., that would be interesting to know about and 
see. We know nationally there is a great upsurge in community 
outreach in the last year during the recession, and morale and 
retention are going up everywhere because of that, certainly in 
private industry. So it would be interesting to see what the 
experience is in the Federal Government right now. People are 
reaching out to people in pain, and all of us know family 
members and friends who are in big trouble, and that has really 
opened hearts and minds of people which make a workplace much 
more attractive when they respond to this. So that is one 
example of an area that is missing right now.
    Senator Akaka. Mr. Stier.
    Mr. Stier. I think that OPM and OMB are looking at the 
survey and are trying to hone in on the right data sets that 
they want to collect. To my mind, some of the most important 
things that need to happen are--and they have decided to do 
this, it has to be done annually. It has to be done frequently 
enough that the information can be used to actually hold 
leadership accountable. It has to also be made available 
faster. In the past the turnaround time has been something like 
5 months. That is too long. You need information in a much more 
expedited fashion.
    I think you also need a census. In the past, there have 
been some agencies that have actually surveyed the entire 
workforce. In today's work with technology, that doesn't really 
cost on the implementation side anything more. But what that 
then allows you to do is to actually understand better what is 
happening in smaller components of agencies, so you can 
actually see important differences within the same organization 
and manage from that data.
    So those are the sorts of things that would make a very big 
impact, and again, I think we are at the front edge of 
understanding how useful this information can be and we need 
more members like yourself to own it and to use it to hold 
leaders accountable when they come in front of you.
    Senator Akaka. Several of you have mentioned paid parental 
leave as an attractive work-life program. Do you believe the 
Federal Government is at a recruiting disadvantage with the 
private sector because we do not offer paid parental leave? Ms. 
Lingle.
    Ms. Lingle. Relatively, I would say yes. My understanding 
is the Federal Government has very generous sick leave, but 
paid parental leave, even for new mothers and certainly for 
fathers, is a relative disadvantage. Today, in private 
industry, the companies we call ``Best in Class,'' about 72 
percent of them offer paid parental leave. In best companies, 
the national average is much lower than that, something about 
15 percent. It is a growing category. Three years ago, that was 
only 12 percent in best practice companies, a huge benefit as 
we learn more about the mind and what happens with children and 
raising children in this 21st Century who have self-esteem with 
two parents on deck.
    Senator Akaka. Ms. Kelley.
    Ms. Kelley. I think it is a recruiting disadvantage for 
some. If at the same time they are looking for a new position 
with the Federal Government and they are also thinking about 
starting a family, then I do think that it is a disadvantage.
    But I think the other place we lose as the Federal 
Government is for employees who are here 5, 6, or 7 years and 
then decide that they are going to start a family and that this 
is an issue for them that wasn't even on their screen when they 
joined the Federal Government. But now it is and it will become 
the reason that we will lose them, because they will leave. 
They won't return to the Federal Government and they will look 
for somewhere else as they continue to build their family that 
has better practices and that are more family friendly.
    Mr. Stier. Mr. Chairman, if I might?
    Senator Akaka. Mr. Stier.
    Mr. Stier. I would just add a personal anecdote on that 
front. I have two children. You have met my wife. She was a 
career Federal prosecutor, had been in the Federal Government 
before that, and she had a lot of vacation time and sick leave 
that she had built up over time and was able to take time off 
as a result for both of our children. If we had not started a 
family as late in life as we had, we would not have had that 
opportunity and it would have been a real hardship.
    I think there is a real differential here. If you have been 
in the Federal workforce for a while, you can manage. But if 
you, as has been suggested by Ms. Kelley, are new, that is a 
real problem and I think it is clearly a disadvantage for the 
government to recruit and retain an important segment of talent 
that is out there.
    Senator Akaka. Thank you. Ms. Kelley and Mr. Flynn, the 
Administration is working to expand worksite wellness programs 
in the Federal Government. What specific steps can OPM take to 
ensure that your members are aware of and participate in these 
programs?
    Ms. Kelley. I think the wellness programs are very 
important and I think that leadership by OPM is important and 
will take us a couple steps forward. But in the long run, I 
think it will come down to resources. And when agencies have 
choices they have to make, and even though they are given the 
authority to run these wellness programs, if they are not given 
the appropriations to do it and they have to make hard choices 
about mission-related, delivery of their programs, that they 
will not become a reality.
    In fact, as pleased as I am that we are talking about these 
wellness benefits, everyone has made pretty clear that the 
percentage of Federal employees benefiting from telework today 
who are able to actually work a telework schedule is very 
small. I would suggest that the percentage of Federal employees 
benefiting from wellness programs is even less than telework. I 
think we are even much further behind on the wellness programs 
than we are on the telework.
    So again, I think what OPM is doing, what the 
Administration is holding up as a standard of what they would 
like for the future, but I think it is going to take consistent 
progress year after year after year. It cannot be something we 
talk about today and then not again for 4 years. And I think 
there has to be a very serious look at budget implications and 
what really is deliverable so that we can have some successes 
to point to.
    Senator Akaka. I want to thank you, this second panel, for 
your observations as well as your experience and perceptions 
about our Federal workers. Several of you have mentioned the 
word ``culture'' and the change of culture that has to come 
about. This is something that I would say is generational, but 
we have to set the base for this and begin to plan 
strategically where we should be in the years ahead to get all 
the productivity from our workers and to make the Federal 
Government an employer of choice. I am so glad that even here, 
there is a cultural change in our relationships among those who 
have decision making powers in our government to continue to 
talk about this and bring this about.
    I am glad to hear, also, that somewhere, there should be a 
question about what the needs of the workers are, and from 
there to try to see what can be done to address workers' needs. 
For me, I think that it is a change in culture that needs to 
come about. And by dealing with their needs, there is a good 
chance they will stay with the Federal Government.
    So all of these ideas are beginning to be expressed and we 
need to really take this and continue to put it together as a 
new base of culture for Federal workers and their future.
    So I want to again thank you all for your thoughts and 
recommendations. I encourage all of you to continue working 
together with this Subcommittee to improve work-life programs 
in the Federal Government. We have mentioned, too, that we need 
to also cast an eye on the private sector and learn from them 
and use whatever can be used in the Federal Government system. 
These programs are vital to support our workforce and attract 
the best people to public service.
    The hearing record will remain open for 1 week for Members 
to submit additional statements or questions.
    Thank you very much for your time. This hearing is now 
adjourned.
    [Whereupon, at 4:19 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 57934.001

[GRAPHIC] [TIFF OMITTED] 57934.002

[GRAPHIC] [TIFF OMITTED] 57934.003

[GRAPHIC] [TIFF OMITTED] 57934.004

[GRAPHIC] [TIFF OMITTED] 57934.005

[GRAPHIC] [TIFF OMITTED] 57934.006

[GRAPHIC] [TIFF OMITTED] 57934.007

[GRAPHIC] [TIFF OMITTED] 57934.008

[GRAPHIC] [TIFF OMITTED] 57934.009

[GRAPHIC] [TIFF OMITTED] 57934.010

[GRAPHIC] [TIFF OMITTED] 57934.011

[GRAPHIC] [TIFF OMITTED] 57934.012

[GRAPHIC] [TIFF OMITTED] 57934.013

[GRAPHIC] [TIFF OMITTED] 57934.014

[GRAPHIC] [TIFF OMITTED] 57934.015

[GRAPHIC] [TIFF OMITTED] 57934.016

[GRAPHIC] [TIFF OMITTED] 57934.017

[GRAPHIC] [TIFF OMITTED] 57934.018

[GRAPHIC] [TIFF OMITTED] 57934.019

[GRAPHIC] [TIFF OMITTED] 57934.020

[GRAPHIC] [TIFF OMITTED] 57934.021

[GRAPHIC] [TIFF OMITTED] 57934.022

[GRAPHIC] [TIFF OMITTED] 57934.023

[GRAPHIC] [TIFF OMITTED] 57934.024

[GRAPHIC] [TIFF OMITTED] 57934.025

[GRAPHIC] [TIFF OMITTED] 57934.026

[GRAPHIC] [TIFF OMITTED] 57934.027

[GRAPHIC] [TIFF OMITTED] 57934.028

[GRAPHIC] [TIFF OMITTED] 57934.029

[GRAPHIC] [TIFF OMITTED] 57934.030

[GRAPHIC] [TIFF OMITTED] 57934.031

[GRAPHIC] [TIFF OMITTED] 57934.032

[GRAPHIC] [TIFF OMITTED] 57934.033

[GRAPHIC] [TIFF OMITTED] 57934.034

[GRAPHIC] [TIFF OMITTED] 57934.035

[GRAPHIC] [TIFF OMITTED] 57934.036

[GRAPHIC] [TIFF OMITTED] 57934.037

[GRAPHIC] [TIFF OMITTED] 57934.038

[GRAPHIC] [TIFF OMITTED] 57934.039

[GRAPHIC] [TIFF OMITTED] 57934.040

[GRAPHIC] [TIFF OMITTED] 57934.041

[GRAPHIC] [TIFF OMITTED] 57934.042

[GRAPHIC] [TIFF OMITTED] 57934.043

[GRAPHIC] [TIFF OMITTED] 57934.044

[GRAPHIC] [TIFF OMITTED] 57934.045

[GRAPHIC] [TIFF OMITTED] 57934.046

[GRAPHIC] [TIFF OMITTED] 57934.047

[GRAPHIC] [TIFF OMITTED] 57934.048

[GRAPHIC] [TIFF OMITTED] 57934.049

[GRAPHIC] [TIFF OMITTED] 57934.050

[GRAPHIC] [TIFF OMITTED] 57934.051

[GRAPHIC] [TIFF OMITTED] 57934.052

[GRAPHIC] [TIFF OMITTED] 57934.053

[GRAPHIC] [TIFF OMITTED] 57934.054

[GRAPHIC] [TIFF OMITTED] 57934.055

[GRAPHIC] [TIFF OMITTED] 57934.056

[GRAPHIC] [TIFF OMITTED] 57934.057

[GRAPHIC] [TIFF OMITTED] 57934.058

[GRAPHIC] [TIFF OMITTED] 57934.059

[GRAPHIC] [TIFF OMITTED] 57934.060

[GRAPHIC] [TIFF OMITTED] 57934.061

[GRAPHIC] [TIFF OMITTED] 57934.062

[GRAPHIC] [TIFF OMITTED] 57934.063

[GRAPHIC] [TIFF OMITTED] 57934.064

[GRAPHIC] [TIFF OMITTED] 57934.065

[GRAPHIC] [TIFF OMITTED] 57934.066

[GRAPHIC] [TIFF OMITTED] 57934.067

[GRAPHIC] [TIFF OMITTED] 57934.068

[GRAPHIC] [TIFF OMITTED] 57934.069

[GRAPHIC] [TIFF OMITTED] 57934.070

[GRAPHIC] [TIFF OMITTED] 57934.071

[GRAPHIC] [TIFF OMITTED] 57934.072

[GRAPHIC] [TIFF OMITTED] 57934.073

[GRAPHIC] [TIFF OMITTED] 57934.074

[GRAPHIC] [TIFF OMITTED] 57934.075

[GRAPHIC] [TIFF OMITTED] 57934.076

[GRAPHIC] [TIFF OMITTED] 57934.077

[GRAPHIC] [TIFF OMITTED] 57934.078

[GRAPHIC] [TIFF OMITTED] 57934.079

[GRAPHIC] [TIFF OMITTED] 57934.080

[GRAPHIC] [TIFF OMITTED] 57934.081

[GRAPHIC] [TIFF OMITTED] 57934.082

[GRAPHIC] [TIFF OMITTED] 57934.083

[GRAPHIC] [TIFF OMITTED] 57934.084

[GRAPHIC] [TIFF OMITTED] 57934.085

[GRAPHIC] [TIFF OMITTED] 57934.086

[GRAPHIC] [TIFF OMITTED] 57934.087

[GRAPHIC] [TIFF OMITTED] 57934.088

[GRAPHIC] [TIFF OMITTED] 57934.089

[GRAPHIC] [TIFF OMITTED] 57934.090

[GRAPHIC] [TIFF OMITTED] 57934.091

[GRAPHIC] [TIFF OMITTED] 57934.092

[GRAPHIC] [TIFF OMITTED] 57934.093

[GRAPHIC] [TIFF OMITTED] 57934.094

[GRAPHIC] [TIFF OMITTED] 57934.095

[GRAPHIC] [TIFF OMITTED] 57934.096

[GRAPHIC] [TIFF OMITTED] 57934.097

[GRAPHIC] [TIFF OMITTED] 57934.098

[GRAPHIC] [TIFF OMITTED] 57934.099

[GRAPHIC] [TIFF OMITTED] 57934.100

[GRAPHIC] [TIFF OMITTED] 57934.101

[GRAPHIC] [TIFF OMITTED] 57934.102

[GRAPHIC] [TIFF OMITTED] 57934.103

[GRAPHIC] [TIFF OMITTED] 57934.104

[GRAPHIC] [TIFF OMITTED] 57934.105

[GRAPHIC] [TIFF OMITTED] 57934.106

[GRAPHIC] [TIFF OMITTED] 57934.107

[GRAPHIC] [TIFF OMITTED] 57934.108

[GRAPHIC] [TIFF OMITTED] 57934.109

[GRAPHIC] [TIFF OMITTED] 57934.110

[GRAPHIC] [TIFF OMITTED] 57934.111

[GRAPHIC] [TIFF OMITTED] 57934.112

[GRAPHIC] [TIFF OMITTED] 57934.113

[GRAPHIC] [TIFF OMITTED] 57934.114

[GRAPHIC] [TIFF OMITTED] 57934.115

[GRAPHIC] [TIFF OMITTED] 57934.116

[GRAPHIC] [TIFF OMITTED] 57934.117

[GRAPHIC] [TIFF OMITTED] 57934.118

[GRAPHIC] [TIFF OMITTED] 57934.119

[GRAPHIC] [TIFF OMITTED] 57934.120

[GRAPHIC] [TIFF OMITTED] 57934.121

                                 <all>

</pre></body></html>
